No.
IN THE

Supreme Court of the United States
_________
EPIC SYSTEMS CORPORATION,
Petitioner,
v.
TATA CONSULTANCY SERVICES LIMITED &
TATA AMERICA INTERNATIONAL CORPORATION (DBA TCS AMERICA),
Respondent.

CERTIFICATE OF SERVICE

I, Michael T. Brody, hereby certify that I am a member of the bar of this Court
and that I have this 12th day of April, 2021, caused three copies of the foregoing
Petition For A Writ Of Certiorari with corrected appendix to be served via UPS
overnight delivery, postage prepaid and one pdf copy to be served via electronic mail
on:
Carter G. Phillips
Sidley & Austin LLP
1501 K Street, N.W.
Washington, D.C. 20005
cphillips@sidley.com
Counsel for Respondent

/s/ Michael T. Brody
Michael T. Brody

